No. 20-7223

IN THE SUPREME COURT OF THE UNITED STATES

ANGELO C. DOUGLAS,
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI.
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

REPLY MOTION TO THE GOVERNMENT'S OPPOSITION

Angelo C. Douglas (PRO SE)
Reg. No. 30337-047
U.S. Penitentiary
P.O. Box 1000
Leavenworth, KS 66048

RECEIVED
MAY 2 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

No. 20-7223

IN THE SUPREME COURT OF THE UNITED STATES

ANGELO C. DOUGLAS,
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

REPLY MOTION TO THE GOVERNMENT'S OPPOSITION

Petitioner Angelo C. Douglas (hereinafter "Petitioner",
replies through PRO SE, to the Governmen-V.ST Opposition to his
petition for Writ of Certiorari, and contends that the
Government ERRS in citing and using the Brief for the United
States in Opposition in BRYAN MARK JOHNSON v. UNITED STATES,
No. 19-7079, for the following reasons:
[1]

Bank robbery under ยง 2113(a) is [NOT] a "crime of

violence, OR BY INTIMIDATION," the offense can [a]lso be
committed by the means of entering a bank "with intent to commit
in such bank... any felony affecting such bank... OR ANY LARCENY."

Whereby, Movant contends that ยง 2113(a) is [I]NDIVISIBLE
and that the latter clause shows that bank robbery can be
committed. [WITHOUT] using physical. force. Hence, this is NOT
the same issues raised in BRYANHMARK JOHNSON v. UNITED STATES,
No. 19-7079, and this Honorable Court should GRANT Certiorari
and APPOINT COUNSEL.

Respectfully Submitted,

A
C. Douglas
Reg. No. 30337-047
U.S..Penitentiary
P.O. BOX 1000
Leavenworth, KS 66048

CERTIFICATE OF SERVICE
I, Angelo C. Dougals, hereby certify that on thisin

, day of

May, 2021, I did in fact hand delivered a true and correct
copy of this Reply Motion, to the U.S. Penitentiary Prison
Mailroom Staff, as provided by the [MAILBOX RULE] pursuant to
HOUSTON v. LACK, 487 U.S. 266 (1988), to be U.S. Mailed by the
method indicated to all counsel of record listed below, including
this Honorable U.S. Supreme Court Clerk's Office:

(U.S. FIRST CLASS MAIL)
ELIZABETH B. PRELOGAR
ACTING SOLICITOR GENERAL
COUNSEL OF RECORD
DEPARTMENT OF JUSTICE
WASHINGTON, D.C. 20530-0001

I declare under penalty of perjury pursuant to the laws of
the United States, Title 28 U.S.C. ยง 1746, that the foregoing is
true and correct.

Angelo C. Douglas

